          Office of Inspector General




September 30, 2006

ELLIS A. BURGOYNE
VICE PRESIDENT, SOUTHWEST AREA

SUBJECT:       Management Advisory – Delivery and Retail Standard Operating
               Procedures – Southwest Area (Report Number DR-MA-06-009)

This report presents the results of our review of the implementation of Delivery and
Retail Standard Operating Procedures (SOP) in the Southwest Area (Project Number
06XG016DR000). Our overall objective was to assess implementation of Delivery and
Retail SOP in the Southwest Area. This is one in a series of reports on Delivery and
Retail operations issued under the Value Proposition Agreement between the Vice
President, Delivery and Retail, and the U.S. Postal Service Office of Inspector General
(OIG) Delivery and Retail directorate. The information in this report will be included in a
nationwide capping report assessing implementation of Delivery and Retail SOP.

The Southwest Area, selected districts and delivery and retail unit officials implemented
the Delivery and Retail SOP for city and rural delivery and Function 4 (customer
service) operations. Implementation included training supervisors and managers,
developing action steps for “vital few” units and outlining future plans to complete
remaining reviews and certifications by the end of fiscal year 2006. Officials also
certified delivery and retail units under Morning Standard Operating Procedures
(AMSOP) and Rural Delivery Standard Operating Procedures (RDSOP) and conducted
Function 4 reviews. Based on our review of the SOP for city and rural delivery and
Function 4 SOP, the Southwest Area implemented each component except for selected
aspects of Integrated Operating Plan (IOP), volume recording, Retail Data Mart Window
Operating Survey (RDM WOS), retail window hours, and Function 4 Business Reviews.

The city delivery operations component needs improvement because management did
not always follow the SOP related to IOP and mail volume recording. In addition, the
Function 4 operations component needs improvement because management did not
always ensure retail window hours were accurately recorded and cost savings were
captured, tracked and monitored. As a result, the Postal Service’s goal of improving
units’ efficiency in an evaluated workload environment and alignment of actual to
standard hours could be adversely impacted.
We recommended the Vice President, Southwest Area direct the Fort Worth and
Houston District Managers to require unit officials to:

•   Consistently follow delivery and retail SOP.
•   Validate that IOPs are updated.
•   Adhere to procedures for recording mail volume.
•   Appropriately staff retail window operations using RDM WOS standards.
•   Enforce the correct use of labor distribution codes.
•   Record non-revenue transactions.

We also recommended the Vice President, Southwest Area, direct the Fort Worth and
Houston District Managers to consistently capture, track and then monitor cost savings
identified in business reviews.

In addition to SOP implementation issues, management was continuing to address the
challenges associated with the “vital few” performers. Management further noted
several challenges in the two districts visited that could impact the expected results from
standardization efforts. Specifically, frequent management turnover, management’s
relationships with local union officials, and SOP goals that do not align with other U.S.
Postal Service policies may impact the results achieved from the SOP implementation.
These issues will be briefly discussed in this report and addressed in more detail in the
overall capping report. Therefore, this report will not provide recommendations to
address these issues.

Southwest Area management agreed with our findings and recommendations and has
initiatives in progress, completed, or planned addressing the issues in this report. The
OIG considers the response provided by management detailing corrective actions taken
and planned to be sufficient to close all recommendations. Management’s comments
and our evaluation of these comments are included in the report.

We appreciate the cooperation and courtesies provided during the reviews. If you have
any questions or need additional information please contact Rita Oliver, Director,
Delivery and Retail, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI




Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments
cc: Patrick R. Donahoe
    William P. Galligan
    Kathy Ainsworth
    Linda J. Welch
    Greg Gamble
    Steven R. Phelps
Delivery and Retail Standard Operating Procedures –                      DR-MA-06-009
 Southwest Area


                                   TABLE OF CONTENTS
 Executive Summary                                                            i

 Part I

 Introduction                                                                1
     Background                                                              1
     Objective, Scope and Methodology                                        3
     Prior Audit Coverage                                                    4

 Part II

 Results                                                                     5

      Implementation of Standard Operating Procedures in the Southwest       5
      Area

      City Delivery Operations                                               7

           Integrated Operating Plan                                         7
           Recommendation                                                    8
           Management’s Comments                                             8
           Evaluation of Management’s Comments                               8

           Volume Recording                                                  8
           Recommendation                                                    9
           Management’s Comments                                             9
           Evaluation of Management’s Comments                               9

      Function 4 Operations                                                 9
         Retail Data Mart Window Operating Survey                           9
         Recommendation                                                    10
         Management’s Comments                                             11
         Evaluation of Management’s Comments                               11

           Retail Window Hours                                             11
           Recommendation                                                  12
           Management’s Comments                                           12
           Evaluation of Management’s Comments                             12

           Function 4 Business Reviews                                     12
           Recommendation                                                  13
           Management’s Comment                                            13
           Evaluation of Management’s Comments                             13
Delivery and Retail Standard Operating Procedures –              DR-MA-06-009
 Southwest Area



      “Vital Few” List                                             14

      Management Challenges to Standardization                     14
        Management Turnover                                        14
        Labor Relations                                            15
        Standard Operating Procedures Goals and Postal Service     15
          Policies

 Appendix A. Prior Audit Coverage                                  16
 Appendix B. Southwest Area Implementation of Delivery and         19
             Retail Standard Operating Procedures
 Appendix C. Management’s Comments                                 20
Delivery and Retail Standard Operating Procedures –                               DR-MA-06-009
 Southwest Area


                                   EXECUTIVE SUMMARY
 Introduction                 This report presents the results of our review of the
                              implementation of Delivery and Retail Standard Operating
                              Procedures (SOP) in the Southwest Area (Project Number
                              06XG016DR000). Our overall objective was to assess
                              implementation of Delivery and Retail SOP in this area.

 Results in Brief             The Southwest Area, selected districts and delivery and retail
                              unit officials implemented the Delivery and Retail SOP for city
                              and rural delivery and Function 4 (customer service)
                              operations. Implementation included training supervisors and
                              managers, developing action steps for “vital few” units and
                              outlining future plans to complete remaining reviews and
                              certifications by the end of fiscal year 2006. Officials also
                              certified delivery and retail units under Morning Standard
                              Operating Procedures (AMSOP) and Rural Delivery Standard
                              Operating Procedures (RDSOP) and conducted Function 4
                              reviews. Based on our review of the SOP for city and rural
                              delivery and Function 4 SOP, the Southwest Area
                              implemented each component except for selected aspects of
                              Integrated Operating Plan (IOP), volume recording, Retail
                              Data Mart Window Operating Survey (RDM WOS), retail
                              window hours, and Function 4 Business Reviews.

                              The city delivery operations component needs improvement
                              because management at the selected districts and units did
                              not always follow the SOP related to IOP and mail volume
                              recording. In addition, the Function 4 operations component
                              needs improvement because management did not always
                              ensure retail window hours were accurately recorded and cost
                              savings were captured, tracked and then monitored. As a
                              result, the Postal Service’s goal of improving units’ efficiency
                              in an evaluated workload environment and alignment of actual
                              to standard hours could be adversely impacted.

                              In addition to SOP implementation issues, management was
                              continuing to address the challenges associated with the “vital
                              few” performers. Management further noted several
                              challenges in the two districts visited that could impact the
                              expected results from standardization efforts. Specifically,
                              frequent management turnover, management’s relationships
                              with local union officials, and SOP goals that do not align with
                              other U.S. Postal Service policies may impact the results




                                                      i
Delivery and Retail Standard Operating Procedures –                                 DR-MA-06-009
 Southwest Area



                              achieved from the SOP implementation. These issues are
                              briefly discussed in this report and will be addressed in more
                              detail in the overall capping report. Therefore, this report will
                              not provide recommendations to address these issues.

                              Consistently following SOP guidance would ensure units
                              identified and took advantage of opportunities to improve
                              operations and reduce cost.

 Summary of                   We recommended the Vice President, Southwest Area, direct
 Recommendations              the Houston and Fort Worth District Managers to require unit
                              officials to:

                               •   Consistently follow delivery and retail SOP.
                               •   Validate that IOPs are updated.
                               •   Adhere to procedures for recording mail volume.
                               •   Appropriately staff retail window operations using RDM
                                   WOS standards.
                               •   Enforce the correct use of labor distribution codes.
                               •   Record non-revenue transactions.

                               Additionally, we recommended the Vice President, Southwest
                               Area, direct the Houston and Forth Worth District Managers
                               to consistently capture, track and then monitor cost savings
                               identified in business reviews.

 Summary of                   Management agreed with our findings and recommendations.
 Management’s                 Management stated the Fort Worth and Houston District
 Comments                     Managers and Senior Operating Managers were trained in
                              September 2006. Specifically, the training included mail
                              arrival profiles and schedules to ensure mail availability in
                              order to meet units’ operating plans. Management stated the
                              districts will be required to update each unit operating plan to
                              ensure efficiency using the National AMSOP and RDSOP
                              review process. The training also included proper mail
                              recording procedures, RDM WOS and RDM scheduler,
                              emphasizing the proper method to schedule retail window
                              operations and use of labor distribution codes. Management
                              stated the area plans to conduct periodic reviews to ensure
                              compliance and will institute a tracking and monitoring system
                              in October 2006. The tracking system will compare actual
                              versus earned Labor Distribution Code 45 hours to identify the
                              “vital few.” The system will also monitor all Function 4



                                                      ii
Delivery and Retail Standard Operating Procedures –                           DR-MA-06-009
 Southwest Area


                              operations to evaluate workhours versus workload to ensure
                              workhours are captured. Management’s comments, in their
                              entirety, are included in Appendix C.

 Overall Evaluation of Management’s comments are responsive to the findings and
 Management’s          recommendations. Management’s actions taken or planned
 Comments              should correct the issues identified in the report.




                                                      iii
Delivery and Retail Standard Operating Procedures –                                                      DR-MA-06-009
 Southwest Area


                                              INTRODUCTION
    Background                      Each day the U.S. Postal Service receives and delivers over
                                    700 million pieces of mail. The Postal Service delivers mail
                                    to 144 million city and rural addresses across a network of
                                    37,000 post offices and retail outlets. To receive and deliver
                                    the mail, the Postal Service has an annual field budget of
                                    about $60 billion of which roughly 51 percent is used for
                                    delivery and retail operations. Annual salary and benefits
                                    in fiscal year (FY) 2006 for city and rural carriers total
                                    about $22 billion and around $8 billion for Function 4
                                    operations. The Southwest Area’s FY 2006 budget is
                                    $2.28 billion1 for city and rural delivery operations and
                                    $847 million for Function 4 operations. The area is
                                    responsible for eight districts and services approximately
                                    3,752 delivery and retail units.2

                                    To ensure the efficient use of resources, the Vice President,
                                    Delivery and Retail, issued a letter on September 30, 2005,
                                    stating that all delivery and retail units will officially
                                    implement the Standard Operating Procedures (SOP)
                                    beginning in FY 2006 to establish standard practices for
                                    managing all delivery and retail functions. In
                                    November 2005, Postal Service senior management
                                    officials requested audit assistance from the U.S. Postal
                                    Service Office of Inspector General (OIG) to assess
                                    implementation of the SOP and determine how the area is
                                    monitoring units on the “vital few”3 list. In response to the
                                    request, the OIG began its nationwide review of the Postal
                                    Service’s implementation of the SOP in January 2006.

                                    The SOP consists of procedures to manage city and rural
                                    delivery and Function 4 operations. Postal Service officials
                                    must implement the SOP consistently and establish a
                                    review process to validate that the programs are operable.
                                    Officials must also take appropriate responsibility for
                                    developing plans that will assure that the SOP are
                                    understood and functional.




1
  This total consists of $1.6 billion for city delivery and $684 million for rural delivery operations.
2
  Some of these units do not have all three components - city delivery, rural delivery, and retail operations.
Therefore, they do not have budgeted workhours for all three operations.
3
  “Vital few” units have the largest opportunity for improvement in city and rural delivery and Function 4 operations,
and require specific management actions.



                                                            1
Delivery and Retail Standard Operating Procedures –                                                       DR-MA-06-009
 Southwest Area



                                     Morning Standard Operating Procedures (AMSOP) are an
                                     important component of city delivery SOP. AMSOP
                                     standardizes daily city carrier functions to align actual
                                     workhours to base workhours. The FY 2006 goal is to
                                     certify4 all level 225 and above Delivery Operations
                                     Information System (DOIS) sites by September 30, 2006.

                                     For rural delivery, the SOP standardizes daily rural carrier
                                     functions to align actual workhours to standard workhours.
                                     The FY 2006 goal is to certify6 75 percent of units with 10 or
                                     more rural routes and those units identified as “vital few.”

                                     The Function 4 operations goal is to provide a standardized
                                     and comprehensive structure for the development of an
                                     integrated review cycle that continually identifies and
                                     quantifies savings opportunities. In addition, management
                                     should conduct Function 4 Business Reviews7 to identify
                                     units with the largest opportunity for workhours
                                     improvements.

                                     A key component of the standards is the identification of
                                     “vital few” units. These units have the largest opportunity
                                     for improvement in city and rural delivery and Function 4
                                     operations and require specific management actions.
                                     Postal Service Headquarters provides area officials with the
                                     “vital few” list quarterly based on the performance of the
                                     previous quarter. The area monitors the “vital few” units
                                     and develops action plans to correct their performance
                                     issues in the city and rural delivery and Function 4
                                     operations.

                                     Postal Service Headquarters provided delivery and retail
                                     standardization training to Area Managers of Delivery

4
  District program managers conduct a certification audit of a city delivery unit’s operations to determine if supervisors
are matching workhours to workload, time attendance reports, office configuration and use of authorized overtime.
Units must achieve a score of 95 or greater for certification.
5
  A level 22 post office is a grade level assigned to the postmaster of a post office according to the total number of
workload service credits attributed to the facility. The credits are based on a combination of the responsibilities of the
postmaster, the number of employees, the size of the facility and various operations performed within each post
office.
6
  District program managers conduct a formalized rural management review focusing on improving efficiency in an
evaluated workload environment to more closely align actual to standard hours, reduce overtime, and reduce
auxiliary assistance hours. Units must achieve a score of 85 or greater for certification.
7
  The on-site review focuses on improving efficiency in an evaluated workload environment, which will result in closer
alignment of actual hours to budget hours. Function 4 SOP teams complete the on-site reviews and an Integrated
Operations Business Plan committee provides critical support to ensure attainment of major organizational targets.



                                                            2
Delivery and Retail Standard Operating Procedures –                                                DR-MA-06-009
 Southwest Area


                                  Support Programs on September 8 and 9, 2005. In
                                  addition, Postal Service Headquarters issued a
                                  memorandum on October 13, 2005, to each area outlining
                                  the area’s responsibility for training managers on the SOP.
                                  Each area was responsible for training districts by
                                  October 31, 2005. The districts were responsible for
                                  completing training for all levels of management by
                                  November 15, 2005. Further, Postal Service Headquarters
                                  requested that each area establish a review process to
                                  validate whether the SOP were adopted to ensure
                                  consistent implementation. Finally, Postal Service
                                  Headquarters informed area officials that the “vital few” list
                                  requires their attention and monitoring, which includes
                                  action plans to correct performance issues in city and rural
                                  delivery and Function 4 operations.

    Objective, Scope, and         Our overall objective was to assess implementation of
    Methodology                   Delivery and Retail SOP in the Southwest Area.
                                  Specifically, we determined whether Southwest Area
                                  officials have implemented SOP in city and rural delivery
                                  and Function 4 operations. The scope of this review
                                  focused on whether area officials implemented the SOP at
                                  the area level and at selected district and delivery and retail
                                  unit locations within the area. We did not determine the
                                  effectiveness of the implemented SOP at this time, but plan
                                  to perform future reviews and identify opportunities to
                                  increase revenue, reduce costs, and improve customer
                                  service.

                                  We visited Postal Service Headquarters and the Southwest
                                  Area to interview management officials and obtain
                                  performance data. We judgmentally selected the Fort
                                  Worth and Houston Districts and the XXXXXXXXXXXX,
                                  XXXXXXXXX, XXXXXXXXX, and XXXXXXX delivery and
                                  retail units for review based on discussions with Postal
                                  Service Headquarters Delivery and Retail officials and
                                  review of FY 2006 delivery and retail performance data for
                                  week 10.8 We reviewed and analyzed performance data
                                  obtained from Postal Service systems from October 2005
                                  through June 2006 and discussed the results with Postal
                                  Service officials.9 We relied on data from these systems to

8
  Week 10 performance data was only for that specific week. The weekly performance data roll-up processes began
in week 14, with year-to-date information available beginning with week 19.
9
  During our review timeframe, we analyzed performance data roll-up information for week 19 year-to-date and week
34 year-to-date.



                                                        3
Delivery and Retail Standard Operating Procedures –                               DR-MA-06-009
 Southwest Area


                                conduct interviews and analysis. However, we did not
                                directly audit the systems, but discussed with Postal Service
                                officials the relevance of the data to delivery and retail
                                performance during our fieldwork.

                                We conducted our review from January through
                                September 2006 in accordance with the President’s Council
                                on Integrity and Efficiency, Quality Standards for
                                Inspections. We discussed our observations and
                                conclusions with management officials and included their
                                comments where appropriate.

 Prior Audit Coverage           The OIG has issued 12 audit reports related to delivery
                                and retail operations. While none of these reports are
                                directly related to our objective, they do identify
                                opportunities to improve management of delivery and retail
                                operations issues. The details of the reports are included in
                                Appendix A.




                                                      4
Delivery and Retail Standard Operating Procedures –                                                  DR-MA-06-009
 Southwest Area


                                                  RESULTS
 Implementation of              The Southwest Area, selected districts and delivery and retail
 Standard Operating             unit officials implemented the SOP in city and rural delivery
 Procedures in the              and Function 4 operations which included:
 Southwest Area
                                     •   Completing SOP training between October and
                                         November 2005 for supervisors and managers
                                         responsible for city and rural delivery and Function 4
                                         operations at the district and unit levels.10

                                     •   Developing action steps for units identified as “vital
                                         few” units.

                                     •   Outlining future plans to complete reviews on the
                                         remaining AMSOP, Rural Delivery Standard Operating
                                         Procedures (RDSOP), and Function 4 Business
                                         Review locations by September 30, 2006.

                                Southwest Area officials had certified 62 percent (112 of 182)
                                of their level 22 and above DOIS sites under AMSOP. During
                                FY 2006, week 34 year-to-date, the city delivery office hours
                                (percent to standard) exceeded standard workhours by 109
                                percent. This was a decrease in hours from week 19 year-to-
                                date, when the office hours exceeded the standard hours
                                by 111 percent. During this same period, the delivery per
                                hour percentage exceeded the same period last year
                                percentage by 1.86 percent. This was a decrease from week
                                19 year-to-date, when the delivery per hour percentage
                                exceeded the same period last year by 2.71 percent.11

                                Further, area officials had certified 9 percent (13 of 150) of
                                their rural units. During FY 2006, week 34 year-to-date, rural
                                delivery total actual workhours exceeded standard workhours
                                by 4.06 percent. This was a decrease from week 19 year-to-
                                date, when the actual hours exceed the standard hours by
                                5.31 percent.

                                Finally, area officials had conducted Function 4 Business
                                Reviews at 91 percent (210 of 231) of their planned
                                locations.12 During FY 2006, week 34 year-to-date,

10
   The area conducted a leadership meeting for all Executive Administration and Salary managers in city and rural
delivery and Function 4 operations. In addition, the SOP was placed on the area’s website.
11
   We are planning a future review on city carrier street performance.
12
   The districts conducted the 44 reviews during the first quarter of FY 2006.



                                                         5
Delivery and Retail Standard Operating Procedures –                                DR-MA-06-009
 Southwest Area


                             Function 4 total earned hour variance was 952,191
                             workhours. This was an increase from week 19 year-to-date,
                             when the earned hour variance was 488,074 workhours.
                             During the same period, the window staffing efficiency for
                             week 34 was 79.6 percent. This was a decrease from week
                             19 year-to-date when the window staffing efficiency was
                             81.3 percent.

                             Based on our review of the SOP for city and rural delivery and
                             Function 4 operations, the Southwest Area implemented each
                             component except for selected aspects of Integrated
                             Operating Plan (IOP), volume recording, retail window hours,
                             Retail Data Mart Window Operating Survey (RDM WOS), and
                             Function 4 Business Reviews. (See Appendix B.)
                             Specifically, one of the four units reviewed did not ensure the
                             IOP allowed for mail receipt prior to carriers’ departure and
                             one unit did not follow procedures to ensure mail volume was
                             measured correctly. Opportunities for improvement also
                             existed in Function 4 operations. Specifically, neither of the
                             two districts reviewed adequately staffed retail window
                             operations to meet RDM WOS standards. Additionally, retail
                             window workhours were not accurately recorded and officials
                             did not capture cost savings resulting from business
                             performance reviews.

                             These conditions existed primarily because operating
                             personnel did not consistently follow SOP guidance for
                             updating IOPs and recording mail volume. Also, oversight
                             was not sufficient to ensure unit personnel consistently
                             followed guidance in the RDM WOS SOP. In addition,
                             management did not capture, track and then monitor the cost
                             savings from Function 4 Business Reviews.

                             In addition to SOP implementation issues, management was
                             continuing to address the challenges associated with the “vital
                             few” performers. Management further noted several
                             challenges in the two districts visited that could impact the
                             expected results from standardization efforts. Specifically,
                             frequent management turnover, management’s relationships
                             with local union officials, and SOP goals that do not align with
                             other U.S. Postal Service policies may impact the results
                             achieved from the SOP implementation. These issues are
                             briefly discussed in this report and will be addressed in more
                             detail in the overall capping report. Therefore, this report will
                             not provide recommendations to address these issues.



                                                      6
Delivery and Retail Standard Operating Procedures –                                                    DR-MA-06-009
 Southwest Area




 City Delivery                   Although the Southwest Area implemented the SOP, we
 Operations                      identified areas for improvement in city delivery. Specifically,
                                 one of the four units reviewed did not ensure the IOP allowed
                                 sufficient time to process and sort dispatch mail prior to
                                 carriers’ departure, and another unit did not follow procedures
                                 to ensure mail volume was measured correctly.

 Integrated Operating            The IOP for one of the four units reviewed did not allow for
 Plan                            mail receipt prior to carriers’ departure. Specifically, the
                                 XXXXXXXX delivery unit has a Carrier Sequence Bar Code
                                 Sorter (CSBCS)13 and is required to process mail at the
                                 facility. The current IOP allows for mail arrival at 5 a.m. and
                                 6 a.m. However, the 6 a.m. dispatch includes both manual
                                 mail and mail requiring Delivery Point Sequencing (DPS)
                                 sorting that cannot be processed and then made available for
                                 carriers prior to their leaving the office to deliver mail.

                                 The above condition existed primarily because unit officials
                                 had not updated the IOP to have the mail arrive earlier from
                                 the plant or change the carriers’ arrival schedules.

                                 Management uses the IOP to improve mailflows between the
                                 processing plants and delivery units. These plans develop
                                 accountability by:

                                    Establishing the schedule of dispatches from the plant to
                                     each of its delivery units and identifying the types of mail
                                     (by shape and level of sortation) the plant will send on
                                     each dispatch.

                                    Tracking the arrival of dispatches at the delivery unit and
                                     the types of mail, by shape and level of sortation, that are
                                     on each dispatch daily.

                                    Providing performance cluster managers with a cross-
                                     functional, end-to-end overview of their operations that will
                                     facilitate better operating results.

                                 The IOP will improve mail-processing performance among
                                 plants and delivery units. When management does not
                                 resolve IOP discrepancies and other mail flow problems

13
   CSBCS is an automated machine that sorts mail for an individual carrier route. This sorting allows the mail to go
directly from the machine to the carrier for delivery.



                                                          7
Delivery and Retail Standard Operating Procedures –                                  DR-MA-06-009
 Southwest Area


                             timely, delivery service and operational costs are negatively
                             impacted.

 Recommendation              We recommend the Vice President, Southwest Area, direct
                             the Fort Worth District Manager to require unit managers to:

                                 1. Revise the Integrated Operating Plan to receive the
                                    mail earlier from the plant or delay the carriers’ start
                                    time.

 Management’s                Management agreed with our finding and recommendation.
 Comments                    Management stated the Fort Worth District Manager and
                             Senior Operating Managers were trained on September 8,
                             2006. The training included unit requirements concerning
                             mail arrival profiles and schedules to ensure mail availability in
                             order to meet unit operating plans. Additionally, the training
                             addressed district requirements to update each unit operating
                             plan to ensure efficiency using the National AMSOP and
                             RDSOP review process. Management stated the area will
                             conduct periodic reviews to ensure compliance, utilizing
                             service review teams and the National AMSOP and RDSOP
                             review process.

 Evaluation of               Management comments are responsive to the finding and
 Management’s                recommendation. Management’s actions, taken or planned,
 Comments                    should correct the issues identified in the finding.

 Volume Recording            The XXXXXXXXX Delivery Unit did not follow procedures for
                             correctly measuring mail volume by consolidating mail tubs
                             prior to volume recording. We observed that carriers retrieved
                             mail from the staging area before the supervisor could record
                             mail volume. Discussion with unit personnel revealed this
                             was a routine practice rather than a one-time occurrence.
                             Even though carriers informed the supervisor of the retrieval
                             of mail, there was a potential for mail volume distortion when
                             mail tubs were not consolidated and carriers were allowed to
                             retrieve mail prior to volume recording.

                             The above condition existed because the supervisor’s primary
                             focus was getting the carriers to the street, not following the
                             SOP for measuring mail volume.

                             Delivery unit management has responsibilities for proper mail
                             measurement procedures. Mail staging must be standardized



                                                      8
Delivery and Retail Standard Operating Procedures –                               DR-MA-06-009
 Southwest Area


                             at each carrier case to facilitate accurate volume recording.
                             Mail volume must be measured using a Data Collection
                             Device (DCD) or Postal Service Form 3921, Volume
                             Recording Worksheet, if there is no DCD.

                             Correct and accurate volume recording is essential to
                             matching workhours to workload, which ultimately helps to
                             control overtime and capture under time.

 Recommendation              We recommend the Vice President, Southwest Area, direct
                             the Houston District Manager to require unit managers to:

                                 2. Follow volume recording SOP, which requires mail
                                    consolidation before measuring.

 Management’s                Management agreed with our finding and recommendation.
 Comments                    Management stated the Houston District Manager and Senior
                             Operating Managers were trained on September 22, 2006.
                             The training included proper mail recording procedures as
                             part of the operating plans. Management stated the area will
                             conduct periodic reviews to ensure compliance, utilizing
                             service review teams, and the National AMSOP and RDSOP
                             review process.

 Evaluation of               Management comments are responsive to the finding and
 Management’s                recommendation. Management’s actions, taken or planned,
 Comments                    should correct the issues identified in the finding.

 Function 4                  Opportunities exist for improving Function 4 operations.
 Operations                  Specifically, the Houston and Fort Worth Districts did not
                             adequately staff retail window operations to meet RDM WOS
                             standards. Additionally, retail window workhours were not
                             accurately recorded and officials did not capture cost savings
                             resulting from business performance reviews.

                             These conditions existed because management did not
                             provide sufficient oversight to ensure unit personnel
                             consistently followed guidance in the RDM WOS SOP and did
                             not track and monitor the results from Function 4 Business
                             Reviews.

 Retail Data Mart            Neither of the two districts reviewed adequately staffed retail
 Window Operating            window operations to meet RDM WOS standards. The RDM
 Survey                      WOS standard for retail window operations is 100 percent.



                                                      9
Delivery and Retail Standard Operating Procedures –                                                         DR-MA-06-009
 Southwest Area


                                  This is a ratio between earned and actual hours. The Fort
                                  Worth District earned 97.6 percent of the actual hours worked,
                                  while the Houston District earned only 86.1 percent of the
                                  actual hours worked.

                                  According to management, the primary factors contributing to
                                  the less than expected performance were inadequate
                                  accountability and understanding regarding RDM WOS
                                  standards. In addition, management not using lobby directors
                                  as needed during peak periods impacted efficiency at the
                                  retail counter.

                                  Unit officials stated more effective staffing could substantially
                                  reduce retail window hours. For example, in the Houston
                                  District, management stated that efficient staffing could have
                                  saved almost 61,000 opportunity hours as of week 22,
                                  FY 2006.

                                  The RDM WOS tool used during standardized Function 4 on-
                                  site reviews at retail postal units provides information on the
                                  retail workload based on the number and types of transactions
                                  conducted at the retail counter.14 Postal Service officials
                                  convert the retail workload information to earned workhour
                                  data and use the results to determine productivity levels and
                                  proper staff scheduling to meet customer demands and attain
                                  established annual workhour budget goals. The RDM WOS
                                  provides information on ranking opportunity in retail, based on
                                  actual performance versus earned workhours.

                                  Unit managers and supervisors are the first line to correct
                                  deficiencies and ensure that customer service is upheld while
                                  maintaining a balance of employee workhours to workload.
                                  While managing clerks to meet their earned hours, managers
                                  are held accountable to control their wait time in line scores.
                                  Lobby directors can also assist in managing wait time in line.

 Recommendation                   We recommend the Vice President, Southwest Area, direct
                                  the Fort Worth and Houston District Managers to require unit
                                  managers to:




14
  The types of transactions include Priority and Express Mail®, stamp and money order purchases, passports, and
mailboxes. Postmasters assign mobile units, at their discretion, to retail postal units in order to provide limited retail
activity in remote locations such as retirement homes and community centers.



                                                            10
Delivery and Retail Standard Operating Procedures –                                                   DR-MA-06-009
 Southwest Area




                                     3. Staff retail window operations using Retail Data Mart
                                        Window Operating Survey and use lobby directors as
                                        appropriate.

 Management’s                    Management agreed with our finding and recommendation.
 Comments                        Management stated the Fort Worth District Manager and
                                 Senior Operating Managers were trained on September 8,
                                 2006 and the Houston District Manager and Senior Operating
                                 Managers were trained on September 22, 2006. The training
                                 included RDM WOS and RDM scheduler emphasizing the
                                 proper method to schedule retail window operations and use
                                 of labor distribution codes. Management also stated
                                 beginning October 2, 2006, the area will institute a tracking
                                 and monitoring system to compare “actual versus earned”
                                 labor distribution code (LDC) 45 hours to identify “vital few”
                                 units. Management further stated the data will be retrieved
                                 daily by each unit from RDM WOS and will be monitored by
                                 the district as well as the area.

 Evaluation of                   Management comments are responsive to the finding and
 Management’s                    recommendation. Management’s actions, taken or planned,
 Comments                        should correct the issues identified in the finding.

 Retail Window Hours             Unit officials for the four units reviewed did not ensure retail
                                 window hours for October, November, and December 2005
                                 were accurately recorded. Management officials attributed
                                 the inaccuracies to three factors:

                                 •   Clerks did not consistently clock in under the correct
                                     operation code and often did not swipe the time clock
                                     when switching from one operation to another.

                                 •   Newly injured employees’ workhours were often budgeted
                                     from the LDC 68 or 69.15 However, these hours are
                                     already absorbed into the functional area in which an
                                     employee is actually assigned such as LDC 43, 45 or 48.16

15
   LDC 68 and 69 identifies permanently and temporarily disabled employees, respectively.
16
  LDC 43 identifies non-supervisory hours used at stations, branches, and associate offices for manual distribution of
mail to carrier routes. It includes distribution of presort bundles and sacks and spreading of mail to carrier routes.
LDC 45 identifies all non-supervisory hours of employees serving customers at window, firm callers, general delivery
customers, and other activities in support of retail operations. LDC 48 identifies non-supervisory hours of customer
service employees assigned to dispatch activities, office work, recordkeeping, and miscellaneous retail activities at
stations, branches, and associate offices, including standby, steward’s duty, travel, and meeting times.



                                                         11
Delivery and Retail Standard Operating Procedures –                                DR-MA-06-009
 Southwest Area



                             •   Non-revenue transactions were not consistently entered
                                 into the Point-of-Service ONE (POS ONE) system
                                 because non-revenue transactions were considered a
                                 lower priority.

                             Retail management is responsible for the accuracy of the
                             entries on time cards, ensuring clerks “clock in” on the correct
                             LDC and ensuring all time is correctly and consistently
                             recorded. In addition, non-revenue transactions must be
                             consistently entered into POS ONE to detail the total number
                             of transactions and time spent on these transactions. This
                             data is critical to managing staffing and scheduling.

 Recommendation              We recommend the Vice President, Southwest Area, direct
                             the Fort Worth and Houston District Managers to require unit
                             managers to:

                                 4. Enforce the requirement for employees to clock-in to
                                    the correct labor distribution codes and to record non-
                                    revenue transactions to account for workload.

 Management’s                Management agreed with our finding and recommendation.
 Comments                    Management stated that the Fort Worth District Manager and
                             Senior Operating Managers were trained on September 8,
                             2006, and the Houston District Manager and Senior Operating
                             Managers were trained on September 22, 2006.
                             Management stated a method to track and monitor non-
                             revenue transactions was included in the training.
                             Management also stated beginning October 2, 2006, the area
                             will institute a tracking and monitoring system to compare
                             “actual versus earned” LDC 45 hours to identify “vital few”
                             units. Management stated the data will be retrieved daily by
                             each unit from RDM WOS and monitored by the district as
                             well as the area.

 Evaluation of               Management comments are responsive to the finding and
 Management’s                recommendation. Management’s actions, taken or planned,
 Comments                    should correct the issues identified in the finding.

 Function 4 Business         Officials at the two districts reviewed did not capture savings
 Reviews                     resulting from business performance reviews. For example,
                             the Houston District conducted a “Function 4 Business
                             Review” during May 2005 but missed the opportunity to



                                                      12
Delivery and Retail Standard Operating Procedures –                                                DR-MA-06-009
 Southwest Area


                                  capture the identified opportunity savings.17 The Fort Worth
                                  District, on the other hand, only began tracking units’ progress
                                  on Function 4 Business Reviews after the SOP was issued.

                                  The SOP requires the area to monitor performance and track
                                  adherence to approved cluster Function 4 Business Plans.
                                  Also, district officials implement the results of the Function 4
                                  reviews and develop a tracking system to capture anticipated
                                  workhour and complement savings.

                                  The results of the reviews are designed to adjust the
                                  operating budget to realize yearly savings. Without an
                                  effective tracking and monitoring system, area and district
                                  officials cannot provide the feedback necessary for increased
                                  performance. Southwest Area officials advised us that they
                                  plan to begin tracking each unit’s progress for FY 2006.

 Recommendation                   We recommend the Vice President, Southwest Area, direct
                                  the Fort Worth and Houston District Managers to:

                                      5. Consistently capture, track, and then monitor cost
                                         savings identified in business reviews.

 Management’s                     Management agreed with our finding and recommendation.
 Comments                         Management stated that the Fort Worth District Manager and
                                  Senior Operating Managers were trained on September 8,
                                  2006, and the Houston District Manager and Senior Operating
                                  Managers were trained on September 22, 2006.
                                  Management stated beginning October 2, 2006, the area will
                                  institute a tracking and monitoring system to compare “actual
                                  versus earned” LDC 45 hours to identify “vital few” units.
                                  Management stated the tracking system will track all Function
                                  4 operations for Cost Ascertainment Grouping (CAG) A
                                  through G offices by evaluated workhours versus workload.
                                  Management stated that through proper scheduling,
                                  workhours will be captured. They also stated that the data will
                                  be monitored and acted upon by each district as well as the
                                  area.

 Evaluation of                    Management comments are responsive to the finding and
 Management’s                     recommendation. Management’s actions taken or planned
 Comments                         should correct the issues identified in the finding.


17
     The Southwest Area business review identified 6,931 hours based on planned review schedule.



                                                         13
Delivery and Retail Standard Operating Procedures –                                 DR-MA-06-009
 Southwest Area




 "Vital Few" List            Although Southwest Area officials developed approved action
                             steps for units identified as “vital few,” they were continuing to
                             address the challenges associated with the “vital few”
                             performers.

                             “Vital few” units are those units with hours above standard
                             that have the largest impact on national performance. The
                             SOP requires Postal Service officials to develop and approve
                             action steps for units identified as “vital few” and establish
                             management expectations using year-round performance in
                             percent to standard hours. Postal Service Headquarters
                             officials provide area officials the “vital few” list at the
                             beginning of each quarter based on the performance of the
                             previous quarter.

                             Southwest Area officials conducted weekly teleconference
                             meetings with district officials on “vital few” units. The
                             teleconferences included discussions of each district’s
                             performance, and potential actions required to address their
                             issues. Participants determined what drives performance and
                             identified best practices in other districts as a guide to making
                             improvements. For example, the Southwest Area employs
                             analytical reviews of the AMSOP process in city delivery units,
                             as well as the RDSOP reviews in the rural delivery units. The
                             area or district performs these reviews at the top 10
                             opportunity delivery units to identify unauthorized and
                             unjustified time. Since officials have taken action to address
                             the “vital few” performers, we are not making any
                             recommendations.

 Management                  In addition to SOP implementation issues, district
 Challenges to               management also identified other challenges in their districts
 Standardization             that impact delivery performance. Specifically, frequent
                             management turnover, management’s relationships with local
                             union officials, and SOP goals that do not align with other
                             Postal Service policies can impact the results achieved from
                             the SOP implementation.

 Management                  Management indicated that frequent management turnover in
 Turnover                    key positions in the Fort Worth and Houston Districts may
                             have contributed to less than expected performance. For
                             example, the Fort Worth District Manager had been acting
                             since February 2006 before being recently promoted into the
                             position. Management noted that the Fort Worth District has


                                                      14
Delivery and Retail Standard Operating Procedures –                                 DR-MA-06-009
 Southwest Area


                             had six district managers and the Houston District has had
                             three district managers in the last 4 years. Management
                             stated that these changes have occurred because of an
                             assortment of vacancies, promotions, and new opportunities
                             within and outside of the Southwest Area.

 Labor Relations             Southwest Area officials stated another factor that negatively
                             impacted performance was management’s relationship with
                             the union. As an example, the Houston District and the local
                             branch of the National Association of Letter Carriers have
                             historically had a contentious relationship. The district agrees
                             that a level of mistrust exists on both sides and increased
                             efforts are needed to resolve or reduce the conflicts.

 Standard Operating          Area officials indicated that they must also work with Postal
 Procedures Goals            Service Headquarters to identify and resolve Postal Service
 and Postal Service          policies or issues that do not align with goals of city delivery
 Policies                    standard operating procedures. Specifically:

                                 •   Carriers returning by 1700 hours. In an effort to meet
                                     this goal, a supervisor might send more carriers to
                                     assist a carrier that could require time beyond 1700
                                     hours. As a result, the unit may incur additional costs
                                     to meet the goal of carriers returning by 1700 hours.

                                 •   Arbitration Cases. One way to reduce the number of
                                     arbitration cases is to settle them after grievances have
                                     been filed. However, district management believes
                                     settlement of grievances may send a message that
                                     certain behavior is accepted.

                             District management indicated that improvements in the areas
                             noted above could assist units in improving performance and
                             matching workhours to workload. We recognize
                             management’s concerns regarding these implementation
                             issues and we plan to address them in the capping report to
                             Postal Service Headquarters.




                                                      15
Delivery and Retail Standard Operating Procedures –                             DR-MA-06-009
 Southwest Area




                                           APPENDIX A

                                 PRIOR AUDIT COVERAGE

City Letter Carrier Operations – Greater Indiana District (Report Number DR-AR- 06-
003, dated March 28, 2006). The report outlined opportunities to improve the
management of city letter carrier operations in the Greater Indiana District. Delivery
facility supervisors and managers did not adequately match workhours with workload.
We projected the sample results for a total of 68,177 unjustified hours over the 5-month
period from January 1 through May 31, 2005, that were not supported by volume or
workload (total unrecoverable costs of $765,487). We also noted that supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use Managed Service Points (MSP) to monitor city letter carriers’ street
time to correct negative trends, or properly document letter carriers’ unauthorized
overtime occurrences and take corrective action.

AM Standard Operating Procedures – Fiscal Year 2005 Financial Installation Audit
(Report Number FF-AR-06-096, dated March 20, 2006). The report outlined that at
28 of the 36 post offices, stations, and branches where AMSOP applied management
had begun implementation. Of those, 11 had obtained certification, and 17 were at
various stages of certification. At the time of our work, eight units had not begun
implementation. Several factors contributed to units not being certified. These factors
included issues with the mail arrival agreement with the processing and distribution
plant, posting and following the AMSOP, and Function 4 activities. We made no
recommendations in this report to management.

City Letter Carrier Operations – Detroit District (Report Number DR-AR-06-002, dated
February 8, 2006). The report outlined opportunities to improve the management of city
letter carrier operations in the Detroit District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 59,208 unjustified hours over the 5-month period from
January 1 through May 31, 2005, that were not supported by volume or workload (total
unrecoverable costs of $723,586). We also noted that supervisors and managers did
not always view DOIS reports in a timely manner to manage operations, consistently
use MSP to monitor city letter carriers’ street time to correct negative trends, or properly
document letter carriers’ unauthorized overtime occurrences and take corrective action.

Address Management Systems (AMS) – Southwest Area – Rio Grande District (Report
Number DR-AR-06-001, dated January 25, 2006). The report outlined opportunities to
improve the quality of Address Management System (AMS) data and put $988,945 of
processing and delivery costs over the next 10 years to better use. Management
agreed with our findings and recommendations and the $988,945 in funds put to better
use.



                                                      16
Delivery and Retail Standard Operating Procedures –                             DR-MA-06-009
 Southwest Area



City Letter Carrier Operations – Chicago District (Report Number DR-AR-05-019, dated
September 29, 2005). The report outlined opportunities to improve the management of
city letter carrier operations in the Chicago District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 78,248 unjustified hours over the 5-month period from
September 1, 2004, through January 31, 2005, that were not supported by volume or
workload (total unrecoverable costs of $2,020,200). We also noted supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use MSP to monitor city letter carriers’ street time to correct negative
trends, or properly document letter carriers’ unauthorized overtime occurrences and
take corrective action.

City Letter Carrier Operations – Santa Ana District (Report Number DR-AR-05-013,
dated August 8, 2005). The report outlined opportunities to improve the management of
city letter carrier operations in the Santa Ana District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 83,864 unjustified hours over the 5-month period from
May 1 through September 30, 2004, that were not supported by volume or workload
(total unrecoverable costs of $2,127,852). We also noted that supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use MSP to monitor city letter carriers’ street time to correct negative
trends, or properly document letter carriers’ unauthorized overtime occurrences and
take corrective action.

City Letter Carrier Operations – San Diego District (Report Number DR-AR-05- 014,
dated August 8, 2005). The report outlined opportunities to improve the management of
city letter carrier operations in the San Diego District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 53,835 unjustified hours over the 5-month period from
May 1 through September 30, 2004, that were not supported by volume or workload
(total unrecoverable costs of $1,423,935). We also noted that supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use MSP to monitor city letter carriers’ street time to correct negative
trends, or properly document letter carriers’ unauthorized overtime occurrences and
take corrective action.

City Letter Carrier Operations – Rio Grande District (Report Number DR-AR-05-009,
dated December 2, 2004). The report outlined opportunities to improve management of
city letter carrier operations in the Rio Grande District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected that the
three delivery facilities had 5,318 unjustified hours (at an estimated cost of $193,947)
not supported by volume or workload over a 5-month period. We reported 2,543 of the
unjustified hours – or $92,762 – as unrecoverable costs. We also noted that
supervisors and managers did not effectively use DOIS to manage daily operations, and



                                                      17
Delivery and Retail Standard Operating Procedures –                              DR-MA-06-009
 Southwest Area


delivery unit supervisors and managers did not consistently perform street management
or effectively use MSP to monitor city letter carriers’ street time to correct negative
trends.

Function 4 – Customer Service Operations (Report Number DR-AR-04-014, dated
September 30, 2004). The Postal Service can improve the effectiveness and efficiency
of the Function 4 customer service process in meeting or exceeding its program goals
of monitoring and measuring the potential savings of customer service operations.
Specifically, Postal Service managers could improve customer service operations by
fully utilizing the standardized Function 4 reviews and sharing proven practices.

City Letter Carrier Office Preparation in the Dallas District (Report Number DR-AR-04-
005, dated July 26, 2004). The report stated that opportunities exist to improve Dallas
District city letter carrier office preparation operations. Specifically, impediments existed
that adversely affected delivery supervisors/managers’ ability to adequately match
workhours with workload. In addition, city letter carriers’ work activities were not always
appropriate to ensure they departed the delivery unit as scheduled. Further,
supervisors/managers did not use the DOIS to assist in managing office activities.

City Letter Carrier Street Management and Route Inspections in the Fort Worth District
(Report Number DR-AR-04-001, dated June 22, 2004). The report stated that street
management and route inspections were generally efficient and effective at the
XXXXXXX and XXXXXXX Stations. Delivery unit supervisors monitored city delivery
carriers’ street time to conserve workhours by performing at least the minimum number
of required street observations. However, while a route inspection was conducted at
the XXXXXX Station delivery unit, post route adjustment procedures were not followed
to maintain routes at 8 hours.

City Carrier Productivity – Letter Carrier Delays in the Baltimore District (Report Number
TD-AR-03-011, dated July 28, 2003). The report stated that early reporting wasted
carriers' morning time, and exposed the Baltimore District to potential unnecessary
evening overtime costs. It was noted supervisors/managers were not using DOIS to
manage carrier schedules, and consequently, could not use the system to evaluate
carrier scheduling or take corrective action.




                                                      18
Delivery and Retail Standard Operating Procedures –                                            DR-MA-06-009
 Southwest Area



                                                  APPENDIX B

                SOUTHWEST AREA IMPLEMENTATION OF
       DELIVERY AND RETAIL STANDARD OPERATING PROCEDURES
                                             Southwest
                                            Area Officials       Dates           SOP
                              SOP           Implemented           SOP          Areas for
                             Areas           Procedures       Implemented    Improvement18
                     City Delivery
                     AMSOP                        Yes           10/2005            No
                     Integrated
                     Operations                   Yes           10/2005           Yes
                     Delivery Point
                     Sequencing                   Yes           10/2005            No
                     Collection Point
                     Management                   Yes           10/2005            No
                     Scanning
                     Performance                  Yes           10/2005            No
                     Matching Workhours
                     to Workload                  Yes           10/2005           No
                     Volume Recording             Yes           10/2005           Yes
                     Route Evaluations
                     and Adjustments              Yes           10/2005            No
                     “Vital Few” Service
                     Improvements                 Yes           10/2005            No
                     Rural Delivery
                     Rural Delivery SOP           Yes           10/2005            No
                     Growth and Delivery
                     Point Mgmt                   Yes           10/2005            No
                     Function 4
                     Operations
                     Function 4 Business
                     Review                       Yes           10/2005           Yes
                     RDM WOS                      Yes           10/2005           Yes

                     Source: Information provided by Postal Service Southwest Area officials




18
     OIG determination based on review results.



                                                         19
Delivery and Retail Standard Operating Procedures –        DR-MA-06-009
 Southwest Area


                       APPENDIX C. MANAGEMENT’S COMMENTS




                                                      20
Delivery and Retail Standard Operating Procedures –        DR-MA-06-009
 Southwest Area




                                                      21
